This Guide to Benefits describes the benefits in effect as of 3/1/08.These benefits and descriptions supersede
any prior benefits and descriptions you may have received earlier. Please read and retain for your records.
Your eligibility is determined by the date your financial institution enrolled your account in the benefits.

Your Visa Card Guide to Benefits
®

Standard Protection Package
For questions about your balance, call the customer service number on your Visa card statement.

Travel and Emergency Assistance Services
What are Travel and Emergency Assistance Services?
Help when you don’t know where to turn. You can count on a wide
range of Visa emergency services available whenever and wherever
you need them, 24 hours a day, 365 days a year.
We will make every reasonable effort to respond when you have an
emergency—even if you need assistance beyond the services listed here.
Please understand that, due to occasional problems such as distance,
location, or time, neither Visa nor its service providers can be responsible
for the availability, use, cost, or results of any medical, legal, transportation,
or other service.

Who is eligible for Travel and Emergency Assistance Services?
You, your spouse, and your children (provided the children are
dependents under 22 years old) may all take advantage of these
special emergency services.

How do I get these services?
They’re as close as the nearest phone. You simply call the Benefit
Administrator at 1-800-VISA-911 any hour of the day or night. If
you are outside the United States, call collect at 0-410-581-9994.

Is there a charge for these services?
No. Visa Travel and Emergency Assistance Services are available
to eligible Visa cardholders at no additional charge.
Please note: Visa Travel and Emergency Assistance Services
provide assistance and referral only. You are responsible for the
cost of any actual medical, legal, transportation, cash advance,
or other services or goods provided.

What are the specific services and what do they provide?
Visa Travel and Emergency Assistance Services will put you in
touch with the appropriate emergency services should the need
arise. Here are some of the ways we can help:
• Emergency Message Service can record and relay emergency
messages for travelers, immediate family members, or business
associates. NOTE: Visa will use reasonable efforts to relay
emergency messages in accordance with benefit guidelines
and limitations, but cannot take responsibility for the failure
to transmit any message successfully.
• Medical Referral Assistance provides medical referral, monitoring,
and follow-up. The Benefit Administrator can give you names of
English-speaking doctors, dentists, and hospitals; assign a doctor
to consult by phone with local medical personnel, if necessary, to
monitor your condition, keep in contact with your family, and provide
continuing liaison; and help you arrange medical payments from
your Visa or personal account. NOTE: All costs are your responsibility.

• Legal Referral Assistance can arrange contact with English-speaking
attorneys and with U.S. embassies or consulates if you’re detained
by local authorities, have a car accident, or need legal assistance.
In addition, the Benefit Administrator can coordinate bail payment
from your Visa or personal account. The Benefit Administrator
can also follow up to make sure bail has been properly handled.
NOTE: All costs are your responsibility.
• Emergency Transportation Assistance can help you make all the
necessary arrangements for emergency transportation home or to
the nearest medical facility. This even includes arranging to bring
your young children home and staying in contact with family members
or employers. In the case of a death, the Benefit Administrator
can make arrangements for returning the remains of the deceased
home. NOTE: All costs are your responsibility.
• Emergency Ticket Replacement helps you with the carrier’s lost
ticket reimbursement procedures if you should lose your ticket
and can arrange delivery of a replacement ticket to you. NOTE:
All costs are your responsibility.
• Lost Luggage Locator Service can help you through the common
carrier’s claim procedures or can arrange shipment of replacement
items if an airline or common carrier loses your checked luggage.
The Benefit Administrator can also arrange a cash advance with
your Visa issuing bank. However, you are responsible for the cost
of any replacement items shipped to you.
• Emergency Translation Service provides telephone assistance in
all major languages and helps find local interpreters, if available,
when you need more extensive assistance. NOTE: All costs are
your responsibility.
• Prescription Assistance and Valuable Document Delivery
Arrangements can help you get prescriptions filled or replaced,
subject to local laws, and can even arrange pickup and delivery
of prescriptions filled for you at local or nearby pharmacies. It
can also help transport critical documents which you may have
left at home or elsewhere. NOTE: All costs are your responsibility.
• Pre-Trip Assistance can give you information on your destination
before you leave—information such as ATM locations, currency
exchange rates, weather reports, health precautions, immunizations,
and required passport visas.
Additional Provisions for Travel and Emergency Assistance Services: The benefit
described in this Guide to Benefit will not apply to Visa cardholders whose accounts
have been suspended or canceled. The terms and conditions contained in this Guide
to Benefit may be modified by subsequent endorsements. Modifications to the terms
and conditions may be provided via additional Guide to Benefit mailings, statement
inserts, or statement messages.
For general questions regarding this benefit, call the Benefit Administrator at
1-800-VISA-911. If you are outside the United States, call collect at 0-410-581-9994.

FORM #VTEA (07/08)

Travel Accident Insurance
Principal Sum: $250,000
THIS IS AN ACCIDENTAL DEATH AND DISMEMBERMENT
ONLY POLICY AND DOES NOT PAY BENEFITS FOR LOSS
FROM SICKNESS
This Description of Coverage is provided to all eligible VISA Platinum
cardholders and replaces any and all Descriptions of Coverage previously issued to the insured with respect to insurance described herein.

Eligibility and Period of Coverage
As a VISA Platinum cardholder, you are covered beginning on
March 1, 2008 or the date your credit card is issued, whichever is
later.
You and your dependents1 become covered automatically when the
entire Common Carrier fare is charged to your covered VISA Platinum card account (“Covered Persons”). It is not necessary to
notify the financial institution, the Insurance Company, or the Plan
Administrator when tickets are purchased. Coverage ends when
the policy is terminated.

Benefits
Subject to the terms and conditions, if a Covered Person’s accidental
bodily Injury occurs while on a Covered Trip and results in any of the
following Losses within one (1) year after the date of the accident,
the Insurance Company will pay the following percentage of the
Principal Sum for accidental Loss of:
Life . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 100%
Both hands or both feet . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 100%
Sight of both eyes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 100%
One hand and one foot . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 100%
Speech and hearing . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 100%
One hand or one foot and the sight of one eye. . . . . . . . . . . . . 100%
One hand or one foot . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50%
Sight of one eye. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50%
Speech or hearing. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 50%
Thumb and index finger on the same hand . . . . . . . . . . . . . . . . . 25%
In no event will multiple charge cards obligate the Insurance
Company in excess of the stated benefit for any one Loss sustained
by a Covered Person as a result of any one accident. The maximum
amount payable for all Losses due to the same accident is the
Principal Sum.
Loss means actual severance through or above the wrist or ankle
joints with regard to hands and feet; entire and irrevocable loss of
sight, speech or hearing; actual severance through or above the
metacarpophalangeal joints with regard to thumb and index fingers.
The life benefit provides coverage in the event of a Covered Person’s
death. If a Covered Person’s body has not been found within one
(1) year of disappearance, stranding, sinking, or wreckage of any
Common Carrier in which the Covered Person was covered as a
passenger, then it shall be presumed, subject to all other provisions
and conditions of this coverage, the Covered Person suffered loss
of life.
Injury means bodily injury or injuries, sustained by the insured
person which are the direct cause of Loss, independent of disease
cause of Loss, independent of disease or bodily infirmity, and
occurring while the Covered Person is covered under this policy,
while the insurance is in force.
Covered Trip means a trip (a) while the Covered Person is riding
on a Common Carrier as a passenger and not as a pilot, operator,
or crew member; (b) charged to your VISA Platinum card; and (c)
that begins and ends at the places designated on the ticket purchased for the trip. Covered Trip will also include travel on a
Common Carrier (excluding aircraft), directly to, from, or at any
Common Carrier terminal, which travel immediately precedes
departure to or follows arrival at the destination designated on
the ticket purchased for the Covered Trip.
Common Carrier means any scheduled airline, land, or water
conveyance licensed for transportation of passengers for hire.

Exclusion: No payment will be made for any Loss that occurs in
connection with, or is the result of: (a) suicide, attempted suicide,
or intentionally self-inflicted injury; (b) any sickness or disease;
(c) travel or flight on any kind of aircraft or Common Carrier except
as a fare-paying passenger in an aircraft or on a Common Carrier
operated on a regular schedule for passenger service over an established route; or (d) war or act of war, whether declared or undeclared.
Beneficiary: Benefit for Loss of life is payable to your estate, or to
the beneficiary designated in writing by you. All other benefits are
payable to you.
Notice of Claim: Written Notice of claim, including your name
and reference to VISA Platinum, should be mailed to the Plan
Administrator within twenty (20) days of a covered Loss or as
soon as reasonably possible. The Plan Administrator will send the
claimant forms for filing proof of Loss.
The Cost: This travel insurance is purchased for you by your
financial institution.
Description of Coverage: This description of coverage details
material facts about a Travel Accident Insurance Policy which has
been established for you and is underwritten by Virginia Surety
Company, Inc. Please read this description carefully. All provisions
of the plan are in the policy, issued to the financial institution trust.
Any difference between the policy and this description will be
settled according to the provisions of the policy.
Questions: Answers to specific questions can be obtained by
writing to the Plan Administrator:
CBSI Enhancement Services
550 Mamaroneck Avenue, Suite 309
Harrison, NY 10528
Underwritten by: Virginia Surety Company, Inc.
175 West Jackson Blvd., 11th Floor
Chicago, IL 60604
1

Your spouse, unmarried dependent child(ren), under age 19 (25 if a full-time
student). No age limit for incapacitated child. Incapacitated child means a child
incapable of self sustaining employment by reason of mental retardation or
physical handicap, and chiefly dependent on you for support and maintenance.
Dependent child(ren) receive 50% of your benefit amount.

Additional Provisions for Travel Accident Insurance: Travel Accident Insurance is
provided under a master policy of insurance issued by Virginia Surety Company, Inc.
(herein referred to as “Company”). We reserve the right to change the benefits and
features of all these programs.
The financial institution or the Company can cancel or choose not to renew the
Insurance coverages for all Insureds. If this happens, the financial institution will
notify the accountholder at least thirty (30) days in advance of the expiration of the
policy. Such notices need not be given if substantially similar replacement coverage
takes effect without interruption and is provided by the same insurer. Insurance benefits
will still apply to Covered Trips commenced prior to the date of such cancellation or
non-renewal, provided all other terms and conditions of coverage are met. Travel
Accident Insurance does not apply if Your VISA Platinum card privileges have been
suspended or canceled. However, insurance benefits will still apply to Covered Trips
commenced prior to the date that Your account is suspended or
cancelled provided all other terms and conditions of coverage are met.
Coverage will be void if, at any time, the accountholder has concealed or misrepresented
any material fact or circumstance concerning this coverage or the subject thereof or
the accountholder’s interest herein, or in the case of any fraud or false swearing by
the Insured relating thereto. No person or entity other than the accountholder shall
have any legal or equitable right, remedy, or claim for insurance proceeds and/or
damages under or arising out of this coverage.
No action at law or in equity shall be brought to recover on this coverage prior to the
expiration of sixty (60) days after proof of loss has been furnished in accordance
with the requirements of this Description of Coverage.
The Company, at its expense, has the right to have you examined as often as reasonably
necessary while a claim is pending. The Company may also have an autopsy made
unless prohibited by law.
FORM #VTAI (07/08)

Warranty Manager Service
How do I benefit from Warranty Manager Service?
Warranty Manager Service offers you a number of valuable features,
including warranty registration and Extended Warranty Protection,
all available with a simple toll-free telephone call. And with our
Visa Performance Guarantee you have the option of purchasing
affordable Extended Service Agreements.*
Warranty Manager’s registration service helps you take full advantage
of your warranties, because you can get key information about your
coverage with a single toll-free call. And if you send us your sales
receipts and warranty information, we’ll keep everything on file—
so arranging for a repair or replacement is as easy as picking up the
telephone. Warranty Manager Service offers Extended Warranty
Protection that doubles the free repair period under the original
manufacturer’s written U.S. repair warranty up to one (1) additional
year on eligible warranties of three (3) years or less when an item
is purchased entirely with your eligible Visa card.

Why should I register my purchases?
To have peace of mind knowing all of your purchases are registered
and on file with Visa. Although registration is not required for Extended
Warranty Protection benefits, it is strongly encouraged that you
send us your sales receipts and warranty information. With this
valuable service, you won’t have to search for critical documentation
when you need it. Arranging for a repair or replacement is as easy
as picking up the telephone. Call 1-800-VISA-911 (or collect at
0-410-581-9994) for information regarding the security of registering
your purchases.
What are the advantages of Visa Performance Guarantee?
Visa Performance Guarantee is valuable protection you can purchase
beyond the benefit provided to you by Visa. It is available to extend
your warranty coverage for up to five (5) years from the date of
product purchase. This provides you with an easy, reasonably
priced way to cover parts and labor costs necessary to repair
your product in case of failure.

Who is eligible for this benefit?
To be eligible for this benefit you must be a valid cardholder of an
eligible U.S.-issued Visa card.

Are gifts covered?
Yes, as long as you purchased the gift entirely with your eligible
Visa card and it meets the terms and conditions of the benefit.

Are purchases made outside the United States covered?
Yes, as long as you purchased the item entirely with your eligible
Visa card and the eligible item has a valid original manufacturer’s
written U.S. repair warranty of three (3) years or less, store-purchased
dealer warranty, or assembler warranty. Rest easy knowing the
purchases made while you travel are protected by Visa.

What items are not covered?
• Boats, automobiles, aircraft, and any other motorized vehicles and
their motors, equipment, or accessories, including trailers and other
items that can be towed by or attached to any motorized vehicle.
• Any costs other than those specifically covered under the terms of
the original manufacturer's written U.S. repair warranty, as supplied
by the original manufacturer, or other eligible warranty.
• Items purchased for resale, professional, or commercial use.
• Real estate and items which are intended to become part of real
estate including, but not limited to, items that are hard-wired or
hard-plumbed, garage doors, garage door openers, and ceiling fans.
• Rented or leased items, or items purchased on an installment
plan and for which the entire purchase price was not paid in full
at the time of the occurrence.
• Computer software.
• Medical equipment.
• Used or pre-owned items.

Do I need to keep copies of receipts or any other records?
To file a claim, copies of your Visa card receipt, your store receipt,
the original manufacturer’s written U.S. warranty, and any other
applicable warranty are required. You will need to retain copies of
these records unless the purchase is registered.

How do I file a claim?
Call the Benefit Administrator at 1-800-VISA-911 (or collect at
0-410-581-9994) immediately upon learning of a product failure.
Please note: If you do not give such notice within sixty (60) days
after the product failure, your claim may be denied. The Benefit
Administrator will ask you for some preliminary claim information,
direct you to the appropriate repair facility, and send you the appropriate claim form. This claim form must be completed, signed, and
returned with all the requested documentation within ninety (90)
days of the product failure. Unless otherwise noted, the date of
loss shall be the date you first notified the Benefit Administrator.

Gift recipients of eligible items are also covered by the claims
process, if desired. However, a gift recipient must provide all the
documents necessary to fully substantiate the claim.
For faster filing, submit your claim online. It’s easy, convenient, and
available at no extra cost to eligible Visa cardholders. To submit
your claim and learn more about the Visa Warranty Manager
Service, go to the Visa Warranty Manager Service Claim Center
at www.visa.com/eclaims.

What documents do I need to submit with my claim?
• Your completed and signed claim form.
• Your Visa card receipt.
• The itemized store receipt.
• A copy of the original manufacturer’s written U.S. warranty and
any other applicable warranty.
• A description and serial number of the item, and any other
documentation deemed necessary to substantiate your claim.
This includes bills and, if necessary, a copy of the maintenance
record and receipts.
• The original repair order.
All claims must be fully substantiated.

How will I be reimbursed?
Once your claim has been verified, the item will be repaired or
replaced at the Benefit Administrator’s discretion, but for no more
than the original purchase price of the covered item less shipping
and handling fees, up to a maximum of $10,000, as recorded on
your Visa card receipt, and $50,000 maximum per cardholder.
Extended Warranty Protection will pay the facility directly for repairs,
if possible, or you may go to an authorized repair facility and file a
claim for reimbursement. Only valid and reasonable repairs made
at the manufacturer’s authorized repair facility are covered.
In either case, the Benefit Administrator’s payment, replacement, or
repair made in good faith will fulfill the obligation under the benefit.
Under normal circumstances, reimbursement will take place within
five (5) business days of receipt and approval of all required documents.

Do I have to file with my insurance company?
No. However, if you have purchased or received a service contract
or Extended Warranty, Extended Warranty Protection is secondary
to that coverage.
* Extended Service Agreements are offered through a third-party administrator,
and may not be available in all states. Terms and conditions may vary by
product type. Call 1-800-VISA-911 for details regarding specific products.
Additional Provisions for Warranty Manager Service: This protection provides benefits
only to you, the eligible Visa cardholder, and to whomever receives the eligible gifts
you purchase entirely with your eligible Visa card.
You shall use due diligence and do all things reasonable to avoid or diminish any
loss or damage to property protected by this benefit. This provision will not be
unreasonably applied to avoid claims.
If you make any claim knowing it to be false or fraudulent in any respect including,
but not limited to, the cost of repair services, no coverage shall exist for such claim
and your benefits may be canceled. Each cardholder agrees that representations
regarding claims will be accurate and complete. Any and all relevant provisions shall
be void in any case of fraud, intentional concealment, or misrepresentation of material
fact by the cardholder.
Once you report an occurrence, a claim file will be opened and shall remain open for
six (6) months from the date of the damage or theft. No payment will be made on a
claim that is not completely substantiated in the manner required by the Benefit
Administrator within six (6) months of the date of product failure.
After the Benefit Administrator has paid your claim, all your rights and remedies against
any party in respect of this claim will be transferred to the Benefit Administrator to
the extent of the payment made to you. You must give the Benefit Administrator all
assistance as may reasonably be required to secure all rights and remedies.
No legal action for a claim may be brought against us until sixty (60) days after we
receive Proof of Loss. No legal action against us may be brought more than two (2)
years after the time for giving Proof of Loss. Further, no legal action may be brought
against us unless all the terms of the Guide to Benefit have been complied with fully.
This benefit is provided to eligible Visa cardholders at no additional cost. The terms
and conditions contained in this Guide to Benefit may be modified by subsequent
endorsements. Modifications to the terms and conditions may be provided via additional
Guide to Benefit mailings, statement inserts, or statement messages. The benefit
described in this Guide to Benefit will not apply to Visa cardholders whose accounts
have been suspended or canceled
Termination dates may vary by financial institutions. Visa and/or your financial institution
can cancel or non-renew the benefit, and if we do, we will notify you at least thirty (30)
days in advance. This information is a description of the benefit provided to you as a
Visa cardholder. It is insured by Indemnity Insurance Company of North America.
For general questions regarding this benefit, call the Benefit Administrator at
1-800-VISA-911, or call collect at 0-410-581-9994.
FORM #VWMGR (07/08)

© 2006–2008, Visa. All Rights Reserved.

visa.com

